Executive Report



Return to the USDOJ/OIG Home Page



Community Oriented Policing Services GrantDayton Police Department, Dayton, Ohio
GR-50-00-002November 19, 1999Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of the grant awarded by the U.S. Department of Justice (DOJ), Office of Community Oriented Policing Services (COPS), to the City of Dayton, Ohio Police Department (Dayton PD).  The Dayton PD was originally awarded $615,925 under the Phase I grant to hire or rehire seven entry-level sworn police officers from October 1, 1994 through September 30, 1997.  However, the project period was extended to March 31, 1999 because the Dayton PD did not begin charging costs to the grant until July 1995.  The purpose of hiring the additional officers was to enhance community policing.

In brief, our audit revealed that the grantee complied with the grant requirements.
However, the Dayton PD did not submit the Department Initial Report to COPS and the 1997 Officer Progress Report was submitted 21 days after the due date.  In addition, cumulative total outlays and the corresponding federal share reported on the most recent Financial Status Reports were overstated by $39,723 and $19,861, respectively. This occurred because the Dayton PD improperly charged overtime costs to the grant.  These items are discussed in the Findings and Recommendations section of the report.  Our scope and methodology appear in the Appendix.